October 29, 2002

RALPH J. MODEN
VICE PRESIDENT, STRATEGIC PLANNING

SUBJECT:          Management Advisory – Postal Service Transformation Plan
                  (Report Number OE-MA-03-001)

This management advisory presents the results of our review of the Postal Service
Transformation Plan (Project Number 02BG015EM000). We initiated this project to
evaluate the Transformation Plan (the plan) and determine whether key elements1 were
included in the planning process.

We found the plan is a good first step toward identifying challenges facing the Postal
Service and helpful in developing plans to address these challenges. However, the
Postal Service needs to determine the impact of unsuccessful reform legislation and
address the universal service, organizational issues, and human capital fixed costs. In
addition, the Postal Service has not finalized a comprehensive transformation
implementation plan, which should include prioritization of strategies, allocation of
resources, and completed project plans, and ensured transformation issues are
effectively communicated.

This report made six recommendations addressing these issues. Management agreed
with the intent of five of our recommendations and has taken or planned corrective
actions addressing those issues identified in this report. Management’s response to
recommendation 2 did not directly address the recommendation. However, we plan to
address this recommendation in future reviews. Thus, we do not plan to pursue it
through the formal audit resolution process. Management’s comments and our
evaluation of these comments are included in this report.




1
 The key elements we reviewed were: (1) prioritization of the plan’s strategies; (2) availability of implementation plans
to achieve these strategies; (3) availability of project plans which correspond to the plan; (4) allocation of resources to
accomplish the strategies; and (5) the methodology for communicating the plan’s strategies to Postal Service
stakeholders.




                                                 Restricted Information
Postal Service Transformation Plan                                                            OE-MA-03-001



                                              Background
In April 2002, the Postal Service published the plan. The purpose of the plan was to
inform Postal Service stakeholders about the short and long-term challenges facing the
Postal Service, provide a source of these challenges, and recommend actions to
mitigate these challenges.

According to the plan, the Postal Service’s institutional model, adopted in 1971, is no
longer effective in dealing with fundamental changes currently reshaping the delivery
services marketplace. These changes include: changing customer needs, eroding mail
volumes, rising costs, fixed costs, the merging of public and private operators into global
networks, and increasing security concerns. These changes could potentially be factors
in the continued decline of the Postal Service customer base and revenue.

In addition, according to the Postal Service, the plan is a roadmap of the Postal
Service’s envisioned plans, which it deems necessary to maintain financial viability
while fulfilling its mission of providing universal service. Thus, for the Postal Service to
survive its near term challenges, it must find the means and act quickly to foster growth
by increasing the value of Postal Service products and services to Postal Service
customers, improve operational efficiency, and enhance the performance-based culture.

                           Objective, Scope, and Methodology
The objective of our review was to evaluate the plan and determine whether key
elements were included in the planning process. The key elements were:
(1) prioritization of the plan’s strategies; (2) availability of implementation plans to
achieve these strategies; (3) availability of project plans which correspond to the plan;
(4) allocation of resources to accomplish the strategies; and (5) the methodology for
communicating the strategies to Postal Service stakeholders.

To accomplish our objective, we reviewed the plan, the Transformation Communication
Plan, and documents relative to the plan. We reviewed pertinent General Accounting
Office (GAO) reports and related news articles. We also reviewed and relied on
workpapers from an ongoing OIG audit2 addressing transformation issues. In addition,
we interviewed officials from the Postal Service Offices of Strategic Planning and
Transformation.

Our fieldwork was conducted from July 25 through August 9, 2002. This review was
conducted from July through October 2002, in accordance with the President’s Council
on Integrity and Efficiency, Quality Standards for Inspections. We discussed our


2
 Review of Government Performance and Results Act Implementation at Postal Service, Project
Number 02XG005FT000.




                                                       2
                                            Restricted Information
Postal Service Transformation Plan                                                                OE-MA-03-001



observations and conclusions with Postal Service management officials and included
their comments, where appropriate.

                                       Prior Audit Coverage
The GAO issued one report3 and three congressional testimonies4 on the Postal
Service’s plan. The report disclosed that the Postal Service’s financial outlook is
growing increasingly dire and recommended that the Postal Service provide monthly
and quarterly financial reports to the public.

In transformation-related testimonies, the GAO discussed reasons why the Postal
Service was added to its high-risk list, the need for a plan, the Postal Service’s financial
outlook, actions the Postal Service has taken or planned, and transformation issues that
need to be addressed.

                                                  Results
The plan is a good first step toward identifying the challenges facing the Postal Service
and helpful in developing plans to address these challenges. In addition, the plan
provides a vision of a new and modern business model embraced by Postal Service
executive officials. The Postal Service has established the Office of Transformation to:
coordinate the development of the plan; consolidate all of the project plans; as well as
track and report progress. The postmaster general and chief executive officer have
held and continue to hold meetings with senior Postal Service officials on
implementation of the plan. The Postal Service took positive steps to implement its
short-term strategies, but could improve implementation by addressing several issues.
Specifically, we observed the following:

Transformation Plan Challenges

The plan provides a forum for legislative issues but does not provide alternative
long-term strategies for successful implementation if proposed legislative initiatives are
not successful. The long-term strategies set forth in the plan, such as defining universal
service and creating a new organizational structure, will require significant stakeholder
and congressional action. However, in recent years, attempts to pass comprehensive
Postal Service reform legislation have not been successful. As recently as June 2002,
a bill5 containing many of the proposals included in the plan was defeated in the House
Committee on Government Reform. Postal Service officials stated that this had no

3
  Deteriorating Financial Outlook Increases Need for Transformation (Report Number GAO-02-355), February 28,
2002.
4
  Transformation Challenges Present Significant Risks (Report Number GAO-01-598T), April 4, 2001; Financial
Outlook and Transformation Challenges (Report Number GAO-01-733T), May 15, 2001; and Moving Forward on
Financial and Transformation Challenges (Report Number GAO-02-694T), May 13, 2002.
5
  The Postal Accountability and Enhancement Act, H.R. 4970.




                                                       3
                                            Restricted Information
Postal Service Transformation Plan                                                OE-MA-03-001



impact on the current progress of the plan because they are working on the short-term
strategies, but in our view, the defeat of this legislation will delay successful
implementation of the plan.

In addition, the plan did not adequately address some key issues. For example, almost
one-half of current Postal Service costs are spent on fixed costs. Although, the plan
has strategies for addressing some of these fixed costs, other costs such as annuitant
health benefits, cost of living adjustments, and retirement liabilities were not adequately
addressed. Since the future rate of increases relating to these costs are beyond the
Postal Service control, we believe that the Postal Service should plan and address
these challenges.

Transformation Implementation Strategy

At the time of our review, the Postal Service did not have a finalized comprehensive
transformation implementation plan. It has not clearly prioritized its’ strategies, finalized
an overall implementation plan, allocated resources to implement the plan, completed
some project plans, tied the plan to the budget, and determined if communication of
transformation issues is effective. Specifically:

    •   Prioritization of plan strategies not completed: Prioritization is essential to assure
        that strategies are evaluated and implemented based on how critical they are to
        the Postal Service’s survival. According to a Postal Service official, plan
        strategies were not fully prioritized because the Postal Service executive
        committee reviews plans as they are presented by each functional area. By not
        considering all strategies together, and prioritizing them on an annual basis upon
        submission of the plan, the Postal Service may not be able to fund the most
        critical projects in a timely manner.

    •   No overall implementation plan finalized: At the time of our review, the Postal
        Service did not have an overall transformation implementation plan finalized. An
        implementation plan was being developed and is expected to be issued in early
        fiscal year (FY) 2003. Development of an implementation plan and roadmap
        would help to maintain the delicate balance between current and future
        requirements as the Postal Service transforms. It would also provide the
        necessary guidance to better focus and direct the Postal Service’s transformation
        activities and tools to guide and oversee progress toward achievement of goals
        and objectives. In addition, it would provide an effective means for evaluating
        potential conflicts, interdependencies, and project feasibility. Based on
        information obtained from Postal Service officials, a comprehensive
        implementation plan had not been completed because of the Postal Service
        executive committee’s ongoing review of strategies. Without such a plan, it can
        be difficult for senior leaders and others to provide the necessary support and
        make optimal decisions on priorities and the effective use of resources to
        successfully transform the Postal Service.



                                                 4
                                      Restricted Information
Postal Service Transformation Plan                                               OE-MA-03-001




    •   All resources to implement strategies have not been allocated: Because plan
        strategies are in development, the Postal Service has not determined the
        estimated cost of all the strategies or allocated resources as necessary. In
        addition, we were told some strategies overlap and the cost of the strategies
        would be easier to determine after preparation of the FY 2003 budget because it
        will contain funding for transformation issues. We are concerned that given the
        projected decline in Postal Service resources, further delay in identifying and
        committing resources to the critical short-term strategies may hinder
        implementation and reduce the plan’s overall effectiveness.

    •   Some project plans are not completed: Well developed project plans will benefit
        the Postal Service’s transformation efforts because they will require detailed
        action plans including schedules, commitments, and resources for implementing
        strategies. Action plans will also highlight plan deficiencies and provide early
        remedies. According to a Postal Service official, project plans and concepts
        corresponding to the postmaster general and chief executive officer’s
        transformation vision are in place for many of the near-term strategies and some
        of the moderate reform items. However, project plans for capital and long-term
        reforms are in varying levels of development or in the concept phase. A Postal
        Service official told us that they will not provide comprehensive project plans until
        the Postal Service executive committee has finished reviewing and approving the
        plan’s strategies.

    •   Plans not tied to the budget: The Postal Service has not budgeted for the plan
        strategies. Based on information obtained from Postal Service officials, the
        Postal Service has no plan to align the budget to the individual plan goals or
        subgoals. However, the Postal Service’s functional areas will submit budgets
        that include transformation issues, for review by the postmaster general and chief
        executive officer. Postal Service officials told us that they anticipate the budget
        would probably remain close to the previous year’s level. As a result, functional
        areas need to determine how to accomplish plan initiatives with a similar budget
        level as the previous year.

    •   Communication effectiveness is not measured: The Postal Service developed a
        communication action plan to inform the public and stakeholders about the plan.
        The communication action plan includes briefing materials and news articles to
        provide information to employees, stakeholders, and the business community.
        The Postal Service placed transformation-related information on the Postal
        Service website, and in trade and business journals. Further, Postal Service
        executives were instructed to brief civic and business organizations on
        transformation issues. Although the website allows Postal Service managers to
        track briefings, there are no established milestones or metrics for continuously
        evaluating the communication action plan’s effectiveness. A Gallop poll was
        conducted at the time the plan was issued to determine the public awareness of



                                                5
                                     Restricted Information
Postal Service Transformation Plan                                           OE-MA-03-001



        the Postal Service transformation. Without active follow up or a measurement
        system to determine the effectiveness of the communication plan, the Postal
        Service may not be able to determine if the plan’s message reached key
        stakeholders.

Conclusion

The Postal Service’s plan is a good starting point on building a viable Postal Service
system for the twenty-first century. The plan provides information about the Postal
Service’s challenges, identifies numerous short-term actions the Postal Service plans to
take under its existing authority, and outlines long-term strategies that would require
congressional action. However, the Postal Service needs to determine the impact of
unsuccessful reform legislation and address the universal service, organizational
issues, and human capital fixed costs. In addition, the Postal Service needs to finalize
an overall implementation plan, which should include prioritization, resource allocation,
project plans, and ensure communication of transformation issues.

Recommendation

We recommend the vice president, Strategic Planning:

1. Continue to coordinate legislative Postal Service reform, including the universal
   service challenge, organizational change, and other fixed costs with Congress and
   other stakeholders.

Management’s Comments

Management agreed with the intent of our recommendation and stated the Postal
Service has been coordinating and will continue to coordinate Postal Service
legislative reform efforts through the vice president, Strategic Planning, and the
Office of Government Relations. Management added the Postal Service committed
to active participation with policymakers, mailers, other stakeholders and the
general public regarding its transformation. Furthermore, management stated it
does not believe there are viable approaches that would guarantee continuation of
universal service other than those already proposed in the plan. However,
management also stated the plan makes clear the Postal Service believes universal
service as now delivered is at risk without structural change.

Management’s comments, in their entirety, are included in the appendix of this
report.

Evaluation of Management’s Comments

Management’s actions taken or planned should correct the problem or resolve the
issues identified in the report.



                                                6
                                     Restricted Information
Postal Service Transformation Plan                                              OE-MA-03-001



Recommendation

We recommend the vice president, Strategic Planning:

2. Ensure that plan strategies are prioritized in a timely manner prior to the fiscal year.

Management’s Comments

Management stated the Postal Service started prioritizing its strategies during the
creation of the plan. Management added the Postal Service Executive Committee
reviewed numerous possible strategies and selected those published in the plan as
the organization’s priorities. Furthermore, management stated the Postal Service’s
FY 2003 budget process included criteria to assure that proposed programs
supported the transformation process in order to receive funding approval.

Evaluation of Management’s Comments

While we agree that the Postal Service prioritized its strategies in creating the plan and
has ensured that the budget process has criteria to fund programs supporting the
transformation process, we see no evidence that the individual strategies are ranked
and/or prioritized to determine the most important strategies and programs within the
plan. We plan to revisit this recommendation in future reviews. Thus, we do not plan to
pursue it through the formal audit resolution process.

Recommendation

3. Finalize an overall implementation plan covering transformation strategies.

Management’s Comments

Management agreed with the intent of our recommendation and stated the Postal
Service has worked on developing detailed project plans to ensure all strategies are
integrated with the Postal Service’s overarching transformation goals. Management
added the Postal Service’s Executive Committee reviewed the project plans, which
comprised the details of how the Postal Service would pursue its transformation
objectives. Furthermore, management stated the Office of Strategic Planning would
assist the Executive Committee in monitoring progress to ensure all strategies are
completed as scheduled or adjusted as necessary to reflect changing
circumstances and priorities.

Evaluation of Management’s Comments

Management’s actions taken or planned should correct the problem or resolve the
issues identified in the report.




                                                7
                                     Restricted Information
Postal Service Transformation Plan                                           OE-MA-03-001



Recommendation

We recommend the vice president, Strategic Planning:

4. Ensure cost estimates are prepared for strategies and funds are allocated
   accordingly to implement plan strategies.

Management’s Comments

Management agreed with the intent of our recommendation and stated the Postal
Service follows a rigorous evaluation process to determine funding for all programs,
which are prioritized against the organization’s goals. Management added Postal
Service funding is authorized according to parameters established by the Executive
Committee, which now include relevance to the plan. In addition, management
stated the budget process for FY 2003, which included the review of the plan
strategies, has been completed. Furthermore, management stated future plan
strategies will be funded this way in subsequent years.

Evaluation of Management’s Comments

Management’s actions taken or planned should correct the problem or resolve the
issues identified in the report.

Recommendation

5. Oversee the development of specific project plans on transformation strategies and
   tie these strategies to the budget.

Management’s Comments

Management agreed with the intent of our recommendation and stated the Postal
Service has developed detailed project plans for each transformation strategy and
would tie each strategy to the Postal Service budgeting process as appropriate.
Management also stated the Postal Service began oversight of Transformation Plan
strategies when it was delivered to Congress in early April. Furthermore,
management stated the Executive Committee has and will continue to monitor
progress.

Evaluation of Management’s Comments

Management’s actions taken or planned should correct the problem or resolve the
issues identified in the report.




                                                8
                                     Restricted Information
Postal Service Transformation Plan                                           OE-MA-03-001



Recommendation

We recommend the vice president, Strategic Planning:

6. Develop a measurement tool to track milestones and metrics to ensure consistent,
   effective, and timely dissemination of transformation information to stakeholders.

Management’s Comments

Management agreed with the intent of our recommendation and stated the Postal
Service has products that will support the measurement tools necessary to track
project milestones and metrics. Management also stated the Postal Service started
in spring 2002 to communicate its transformation efforts throughout the organization
and to stakeholders. Furthermore, management stated the Postal Service would
continue to compile a database of stakeholders, and would conduct follow-up
surveys to ensure that the transformation messages are being effectively
communicated.

Evaluation of Management’s Comments

Management’s actions taken or planned should correct the problem or resolve the
issues identified in the report.

The OIG considers recommendations 1 through 5 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective action(s) are completed. These recommendations should not be
closed in the follow-up tracking system until the OIG provides written confirmation that
the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert J.
Batta, director, eCommerce and Marketing, at (703) 248-2100, or me at (703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment

cc: John E. Potter
    John M. Nolan
    Julie S. Moore
    Susan M. Duchek



                                                9
                                     Restricted Information
Postal Service Transformation Plan                            OE-MA-03-001



                    APPENDIX. MANAGEMENT’S COMMENTS




                                               10
                                     Restricted Information
Postal Service Transformation Plan                            OE-MA-03-001




                                               11
                                     Restricted Information
Postal Service Transformation Plan                            OE-MA-03-001




                                               12
                                     Restricted Information
